           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



     EMPLOYERS WITH THE MOST
   SUSPENDED WAGE ITEMS IN THE
  5-YEAR PERIOD 1997 THROUGH 2001


    October 2004   A-03-03-13048




AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                    SOCIAL SECURITY

MEMORANDUM

Date:   October 26, 2004                                                           Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: Employers with the Most Suspended Wage Items in the 5-Year Period 1997 through
        2001 (A-03-03-13048)

        OBJECTIVE

        Our objectives were to (1) identify the 100 employers responsible for sending the most
        wage items to the Earnings Suspense File (ESF) in the 5-year period 1997 through
        2001 and (2) identify patterns of errors and irregularities in wage reporting or other
        reasons for the large number of ESF items for the 100 employers during that time
        period.

        BACKGROUND

        The Social Security Administration (SSA) is responsible for maintaining accurate
        individual earnings records. Employers annually report their employees’ earnings on a
        Wage and Tax Statement (Form W-2). When an employee’s name and/or Social
        Security number (SSN) does not match SSA's records, the reported wages cannot be
        posted to an individual’s earnings record and are recorded in the ESF. SSA attempts to
        match the earnings recorded in the ESF to the individual who earned them, and if
        successful, post the earnings to the Master Earnings File (MEF).1 Wages in the ESF
        can affect an individual’s Social Security benefits. Earnings posted to the MEF are used
        by SSA to determine eligibility for retirement, survivors, disability, and health insurance
        benefits and to calculate benefit amounts. If earnings are not properly posted to an
        individual’s earnings record, the person will not receive credit for them. As of
        October 2003, the ESF accumulated about $421 billion in wages and 244 million wage
        items for Tax Years (TY) 1937 through 2001. The 5-year period in our review
        represents approximately $200 billion in accumulated wages and about 41 million wage
        items.



        1
         The MEF contains all earnings data reported by employers and self-employed individuals. This data is
        used to calculate the Social Security benefits due an individual with an earnings record.
Page 2 – The Commissioner

This is our third report related to employers responsible for sending the most wage
items to the ESF. Our September 1999 audit reviewed wage items submitted to the
ESF during TYs 1993 to 1996.2 Our October 2003 audit assessed the status of the
employers we identified in the 1999 audit.3 See Appendix B for more information on
these earlier audits.

Our audit did not include an evaluation of SSA’s internal controls over the wage
reporting process, nor did we attempt to establish the reliability or accuracy of the wage
data. When appropriate, we used the same methodology used in our prior related
audits. We provide information on our scope and methodology in Appendix C. The
entity audited was SSA’s Office of Public Services and Operations Support (OPSOS)
under the Deputy Commissioner of Operations and the Office of Earnings, Enumeration
and Administrative Systems under the Deputy Commissioner of Systems. We
conducted our audit in Baltimore, Maryland and the Office of Audit in Philadelphia,
Pennsylvania between August 2003 and March 2004. We conducted our audit in
accordance with generally accepted government auditing standards.

RESULTS OF REVIEW
Our review found that a small number of identifiable employers account for a
disproportionate number of ESF items and wages. The 100 employers identified in our
audit were responsible for approximately 7 percent of the total ESF items and about
5 percent of the total ESF wages during the 5-year review period. These
100 employers were mainly in three industries: services, restaurants, and agriculture.
We also found that the majority of the employers experienced an increase in suspended
wages over the 5-year period. In addition, 20 of the 100 employers had more than
60 percent of their reported wage items in the ESF. Furthermore, a review of more than
5,600 employers showed that 37 percent had at least 60 percent of their TY 2001 wage
items in the ESF. The Agency has recently developed the Earnings Data Warehouse
(EDW), which should assist SSA personnel in identifying problem employers.

TOP 100 EMPLOYERS FOR TAX YEARS 1997 TO 2001

Our review identified the 100 employers responsible for the most wage items in the ESF
for TYs 1997 to 2001. These 100 employers, hereinafter called the “Top 100,” account
for a disproportionate share of the growth of the ESF. Although about 6.5 million
employers annually file wage reports, these Top 100 employers were responsible for
approximately 7 percent (2.7 million) of the ESF wage items and about 5 percent
($9.6 billion) of the ESF wages for TYs 1997 to 2001 (see Appendix D). We reviewed
the wage reporting trends of these Top 100 employers to determine (1) the industries
and States represented by these employers, (2) reporting trends over the 5-year period,

2
 SSA OIG, Patterns of Reporting Errors and Irregularities by 100 Employers with the Most Suspended
Wage Items (A-03-98-31000), September 1999.
3
 SSA OIG, Follow-up Review of Employers with the Most Suspended Wage Items (A-03-03-13026),
October 2003.
Page 3 – The Commissioner

(3) the percent of their reported wages going into suspense, and (4) the types of errors
reported by employers.

Industries and States Represented by Top 100 Employers

Our analysis of the Top 100 employers by industry determined that the highest
contributors of items to the ESF were concentrated in three industries: services,
restaurants, and agriculture. We found that 95 of the Top 100 employers were in 1 of
these 3 industries, representing 2.6 million wage items and over $9.1 billion in wages
over the 5-year review period. Forty-three of the Top 100 employers were in the service
industry,4 32 were in the restaurant industry, and 20 employers were in the agriculture
industry.5 Four of the remaining employers were in the hotel/retail industry, and one
was a State agency. See Figure 1 for grouping by industry.

                        Figure 1: Top 100 Employers by Industry
                                         (TYs 1997 to 2001)
                                                          43%

                                    1%
                                   4%




                                 20%




                                                       32%

                  Services               Restaurants          Agriculture
                  Hotel/Retail           State/Local Agency



The Top 100 employers were registered with the Internal Revenue Service in
27 States.6 This address may relate more to payroll issues than the physical location
where an employer does most of its business.7 We found that 54 of the 100 employers
had registered addresses in three States – California, Texas, and Illinois – representing

4
 See our report on the service industry in Management Advisory Report: Review of Service Industry
Employer with Wage Reporting Problems (A-03-00-10022), September 2001.
5
  See our report on the agriculture industry in Obstacles to Reducing Social Security Number Misuse in
the Agriculture Industry (A-08-99-41004), January 2001.
6
 We used the employer mailing address related to the Employer Identification Number (EIN). The EIN is
a 9-digit number assigned by the IRS to sole proprietors, corporations, partnerships, estates, trusts, and
other entities for tax filing and reporting purposes.
7
  For example, an employer may have a New York address associated with the EIN but have operations
in all 50 States.
Page 4 – The Commissioner

almost 1.5 million wage items and over $4.8 billion in wages during TYs 1997 to 2001.
These 54 employers were responsible for over 3.5 percent of the wage items and
2.4 percent of the wages sent to the ESF by all employers reporting wages in our audit
period. California had the highest number of Top 100 employers, with 25 employers
representing about 683,000 wage items and approximately $2 billion in wages during
our audit period. See Appendix E for an alphabetical listing of Top 100 employers by
State.

Increase in Suspended Wage Items

Our review of the Top 100 employer data also found that the average increase in
suspended wage items between TYs 1997 and 2001 was approximately 69 percent. An
increase or decrease in suspended wage items for a particular employer could occur for
a number of reasons, including a change in the number of employees or even the
volume of items moved from the ESF to wage earners’ records. Overall, we found that
14 employers showed a decrease in the number of wage items reported between
TYs 1997 and 2001. However, 86 of the 100 Top employers showed an increase in
suspended wage items (see Figure 2). Six employers experienced an increase of
400 percent or more during this timeframe. For example, a Texas employer in the
service industry experienced a 1,300 percent increase in suspended wage items over
the 5 years. While the employer’s payroll also increased during this period, from about
9,000 in FY 1997 to approximately 66,000 in TY 2001 (a 633 percent increase), the
increase in suspended items was at a greater rate.

                       Figure 2: Changes in Suspended Wage Items
                                 Among Top 100 Employers
                                  (Tax Years 1997-2001)
                                           35                   32                      28
                                           30
                     Number of Employers




                                           25                               20
                                           20
                                           15
                                           10                                                       6
                                            5
                                             0
                                            -5
                                                         14
                                           -10
                                           -15
                                               ro




                                                                                               0%
                                                                       0%




                                                                                   0%
                                                           %
                                             Ze




                                                         50




                                                                                 40




                                                                                             40
                                                                     10
                                            to




                                                     to




                                                                                           ve
                                                                             to
                                                                 to
                                        5%




                                                    1%




                                                                                         bo
                                                                          1%
                                                                 %
                                      -5




                                                               51




                                                                                        A
                                                                        10




                                                 Decrease/Increase in Suspended Wage Items
Page 5 – The Commissioner

Percent of Wage Items Sent to the Earnings Suspense File

On average, about 8 percent of the wage items reported by the Top 100 employers
during TYs 1997 to 2001 were posted to the ESF. However, 20 of the 100 employers
each had over 60 percent of their reported wage items in the ESF. Figure 3
summarizes the percent of reported wage items in the ESF among the Top 100
employers.

                                                       Figure 3: Percent of Top 100 Employer Wage Items in the
                                                            Earnings Suspense File (Tax Years 1997-2001)
                   Percent of Wage Items in Suspense




                                                       81% to 100%       1

                                                        61% to 80%                          19

                                                        41% to 60%                11

                                                        21% to 40%                     16

                                                         0% to 20%                                                53

                                                                     0       10        20        30    40    50    60
                                                                                       Number of Employers



This high level of suspended wages could relate to a number of scenarios, including
problems with the wage reporting software or a workforce using fraudulent documents.
In a March 2001 paper,8 SSA noted that many suspended items involve the agricultural
industry, which has transient employees who may not have work authorizations from the
Department of Homeland Security. Other high turnover industries, such as restaurants
and other service industries, have similar profiles. Frequent job and residential changes
are common with members of these workforces.

Of the 20 employers with more than 60 percent of their wages in suspense,
14 employers were in the agriculture industry, with the remainder from the service
industry. In the case of the employer with the worst accuracy, SSA suspended
89 percent of the TY 2001 wage items submitted by an agricultural employer located in
Florida.9 This represented 6,709 of the 7,497 wage items submitted by this employer.
Furthermore, these suspended wage items represented about 82 percent of the
$28.5 million in wages reported by this employer in TY 2001.


8
    SSA, SSA Key Initiative Plan and Schedule: Reduce Earnings Suspense File (KI #46), March 15, 2001.
9
 We also reviewed the TY 2002 wages reported by this employer, the last year this suspended data was
available in SSA’s systems, and found that SSA suspended 89 percent of the TY 2002 wage items.
Page 6 – The Commissioner

Types of Wage Reporting Errors

Of the wage items reported by the Top 100 employers in TY 2001, approximately
622,000 were posted to the ESF. About 159,000 wage items (26 percent) were
reported using unassigned SSNs. Unassigned SSNs have not been issued by SSA,
and are referred to as impossible numbers. For example, SSA does not issue SSNs
that begin with the number “8” or “9.” The remaining 74 percent of the ESF items were
reported with legitimate SSNs that could not be associated with the name of the
Numberholder on SSA’s records.

We looked at other trends, such as duplicate SSNs, as well as potential Individual
Taxpayer Identification Numbers (ITIN),10 to see what other types of errors may have
been introduced. We found some items that met this criterion. For example,
18,896 SSNs were used 2 or more times at the same employer.11 We acknowledge
that an employer might issue more than one W-2 to an employee in a given year. Also,
we found 1,078 cases where the suspended wage item had a number very similar to an
ITIN.12

REPORTING ACCURACY AMONG OTHER EMPLOYERS

We also analyzed the wage reporting of all employers with 200 or more wage items in
the ESF for TY 2001. In TY 2001, about 6.5 million employers filed wage reports, with
approximately 730,000 employers reporting at least one wage item later posted to the
ESF. We identified 5,689 employers meeting the 200 or more suspended wage items
criteria. These 5,689 employers submitted about 4 million suspended wage items and
over $17.2 billion in suspended wages. Although the 5,689 employers meeting our
criteria were a very small percentage of both groups (.1 percent of the 6.5 million
employers and .8 percent of the 730,000 employers submitting at least one suspended
item), they contributed over 41 percent of the wage items and about 30 percent of the
wages posted to the ESF for TY 2001.

Our analysis of the employer data also determined that 2,118 of the 5,689 employers
(37 percent) had at least 60 percent of their reported wage items posted to the ESF.
We provide a breakout of the reporting results of all 5,689 employers in Figure 4.



10
  A 1997 memorandum of understating between SSA and the IRS agreed that ITINs would begin with the
number “9.” An ITIN is a 9-digit number assigned by the IRS to a non-citizen who needs a tax
identification number for tax purposes, but is not eligible to be issued an SSN.
11
  Approximately 11,000 of these 18,896 duplicate SSNs were from one employer, a restaurant industry
employer located in Kentucky. It appears the employer reversed approximately 5,500 earnings postings,
causing both positive and negative wage entries for the same employees.
12
 For more information on reporting trends in the ESF, see our earlier reports, including the
Congressional Response Report: Status of the Earnings Suspense File (A-03-03-23038),
November 2002, as well as reports cited in Appendix H.
Page 7 – The Commissioner

                  Figure 4: Percent of 5,689 Employers’ Wage Items
                             in the Earnings Suspense File
                                     (Tax Year 2001 )
                                                             609

                                     1,508




                                                                         1,509




                                     908


                                                         1,155
                             80 Percent and Above         60 to 79 Percent
                             40 to 59 Percent             20 to 39 Percent
                             Under 20 Percent

As noted earlier, these reporting accuracy problems can occur for a variety of reasons.
However, regardless of the cause, the employees will not get credit for their earnings. A
New Jersey labor service employer had 96 percent of its reported TY 2001 wage items,
or 2,177 wage items, posted to the ESF. These suspended items represented over
$6.8 million in wages that went to the ESF. Another service industry employer, a
security guard service in California, had almost 49 percent of its reported wage items
posted to the ESF in TY 2001. This employer reported 8,902 wage items, of which
4,321 did not match SSA’s records and were posted to SSA’s ESF. As a result, this
employer posted more than $27 million in wages to the ESF.

SSA CORRECTIVE ACTIONS

Our analysis of reporting trends would assist SSA’s Employer Service Liaison Officers
(ESLO) in resolving wage-reporting problems.13 SSA maintains ESLOs in SSA regions
throughout the United States to: (1) answer employers’ questions on wage reporting
submissions; (2) encourage employers to use SSA’s various programs, such as the
Employee Verification Service; (3) conduct wage-reporting seminars, in partnership with
the IRS, for employers, payroll service providers and payroll software companies; and
(4) contact employers with significant suspended wage items in their regions. As we
noted in our October 2003 audit,14 each year the OPSOS develops a national listing of

13
   The ESLOs are under the jurisdiction of individual Regional Commissioners, and their job duties vary
from region to region. In addition, some ESLOs have wage reporting liaisons to assist them. For
example, the Atlanta ESLO office has 11 staff members to assist employers with W-2 filing questions,
while the Philadelphia ESLO office consists of one staff member.
14
 SSA OIG, Follow-up Review of Employers with the Most Suspended Wage Items (A-03-03-13026),
October 2003.
Page 8 – The Commissioner

employers who submit 100 or more suspended wage items. These lists are sent to
regional ESLOs for follow-up contacts with the employers. SSA does not direct the
ESLOs to contact specific employers or follow-up with the ESLOs regarding what
contacts were made and the results of the contacts. Nor does OPSOS provide the
ESLOs with a listing showing the percent of an employer’s payroll posted to the ESF.

Our analysis provides a number of additional ways to review the reporting trends of
employers, including changes in the volume of wage items in suspense as well as the
percent of an employer’s payroll in the ESF. If the ESLOs knew the reporting trends for
the employers in their region, it could assist them in focusing their outreach efforts.
SSA is developing an EDW, which could provide such statistics to the ESLOs, as well
as other useful data. Among other things, the EDW was designed to provide
management with trend data on employer wage reporting (see Appendix F). Hence, the
EDW should be able to produce a listing of employers showing their wage reporting
accuracy.

Employer reporting trends could also be useful to the IRS were it to assess penalties on
employers submitting inaccurate names/SSNs in their wage reports.15 In fact, in
August 2002 SSA provided a listing to the IRS of all the employers with more than
100 items in the ESF, and sorted this list by the number of items in suspense as well as
percent of payroll in suspense. For more information on the IRS efforts to assess
penalties on employers, see Appendix G.

CONCLUSIONS AND RECOMMENDATIONS
SSA needs to maintain continued diligence to slow the growth of the ESF. Many of the
largest contributors to the ESF are identifiable within SSA’s systems, repeatedly submit
inaccurate wage reports, and are in specific industries such as services, restaurants,
and agriculture. Directing assistance efforts at the employers with the more significant
reporting problems would best use the ESLO’s limited resources. SSA’s EDW, when
fully functional, should be a useful tool in analyzing and resolving wage reporting
problems. SSA can develop more meaningful statistics for ESLOs once the EDW is
fully functional.

We recommend that SSA:

1. Create centralized EDW reports, after considering ESLO input, that assist ESLOs
   with identifying problematic employer reporting trends, such as increases in the
   volume of wage items in suspense as well as the percent of an employer’s payroll in
   the ESF.




15
    The Internal Revenue Code, 26 U.S.C. § 6721 (2003), allows the agency to penalize employers if they
fail to file complete and accurate wage reporting forms. The penalty is $50 per incorrect form, with
maximum penalties according to the size of an employer.
Page 9 – The Commissioner

2. Ensure ESLOs consider employer reporting trends created by EDW as part of their
   criteria in identifying employers for assistance through periodic monitoring from
   Headquarters.

AGENCY COMMENTS

The Agency agreed partially with our first recommendation, stating that it would work
with individual ESLOs in determining their reporting needs and requirements including
the method of delivery. The Agency stated that the EDW can identify employers with
large numbers of ESF items or larger percentages of W-2 data on the ESF. However,
identifying the percentage of an individual employer’s payroll in the ESF would require
systems modifications to the Annual Wage Reporting (AWR) system. These
modifications require approval by the Agency’s Information Technology Advisory Board.

The Agency also partially agreed with our second recommendation, agreeing to use the
EDW when identifying employers requiring wage reporting assistance. In addition, the
Agency will continue working with the regional ESLOs in addressing the Agency’s ESF
goals, but will not directly monitor the ESLOs efforts from Headquarters.

OIG RESPONSE

In regards to our first recommendation, we appreciate that the Agency will work with
individual ESLOs in determining their reporting needs and requirements, including the
method of delivery. Regarding the systems modifications required to identify specific
employer reporting accuracy rates, we feel these modifications would be productive and
should be considered. Having the AWR system identify problematic employer trends
and sharing this information with the EDW would put useful data in the hands of the
EDW customers. One of the stated goals of the EDW is that it will allow users to access
different views of earnings data, including analyzing wage reporting data received by
SSA.

In reference to our second recommendation, we agree that the EDW will be useful in
identifying employers with wage reporting problems. The Agency expects the EDW to
provide historical and trend earnings data to support SSA’s business needs, and assist
SSA in providing quality service to customers. In view of the varying staffing levels and
different job duties of the regional ESLOs, we still believe Headquarters should monitor
ESLO efforts in this area to ensure employer trends are being considered in their
outreach efforts. In addition, such monitoring could assist the various ESLOs to share
best practices and other useful information.




                                                S
                                                Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Background on Earlier Audit Findings

APPENDIX C – Scope and Methodology

APPENDIX D – Top 100 Employers for Tax Years 1997 to 2001-- Earnings Suspense
             File Wage Items

APPENDIX E – Alphabetical Listing of Top 100 Employers by State

APPENDIX F – Earnings Data Warehouse

APPENDIX G – Status of Internal Revenue Service Efforts to Monitor Employers

APPENDIX H – Prior Office of the Inspector General Reports

APPENDIX I – Agency Comments

APPENDIX J – OIG Contacts and Staff Acknowledgments
                                                             Appendix A

Acronyms
EDW      Earnings Data Warehouse

EIN      Employer Identification Number

ESF      Earnings Suspense File

ESLO     Employer Service Liaison Officer

ITIN     Individual Taxpayer Identification Number

IRS      Internal Revenue Service

MEF      Master Earnings File

OIG      Office of the Inspector General

OPSOS    Office of Public Services and Operations Support

SSA      Social Security Administration

SSN      Social Security Number

TIGTA    Treasury Inspector General for Tax Administration

TY       Tax Year

U.S.C.   United States Code

Forms:

W-2      Wage and Tax Statement

W-4      Employee’s Withholding Allowance Certificate
                                                                               Appendix B

Background on Earlier Audit Findings
TOP 100 AUDIT FINDINGS, SEPTEMBER 1999

In our September 1999 audit,1 we noted that 84 of the 100 employers experienced
increases in suspended wage items over the 4-year period, Tax Years (TY) 1993 to
1996, including 27 employers with increases of 100 percent or more.

Patterns of reporting errors and irregularities exhibited by the 100 employers included
the following.

    •   Ninety-six employers reported 109,360 Social Security numbers (SSN) never
        issued by the Social Security Administration representing about $298.5 million in
        suspended wages.

    •   Thirty-six employers reported 3,127 of the 109,360 unassigned SSNs as
        "000-00-0000."

    •   Ninety-four employers reported duplicate mailing addresses for 3 or more
        employees, involving 72,770 suspended Wage and Tax Statements (Form W-2)
        or 21 percent of the 340,922 suspended wage items for these employers in 1996.
        Suspended wages involving duplicate addresses totaled about $193.7 million.

    •   Eighty-six employers reported 3 or more consecutively numbered SSNs involving
        4,910 W-2s and $14.4 million in suspended wages. We defined consecutive
        SSNs as those where the first six digits were identical.

    •   Sixty-nine employers reported 16,742 identical W-2s, representing $31.1 million
        in suspended wages, that were used 2 or more times by employees working for
        the same employer.




1
 SSA OIG, Patterns of Reporting Errors and Irregularities by 100 Employers with the Most Suspended
Wage Items (A-03-98-31000), September 1999.



                                                B-1
TOP 100 FOLLOW-UP AUDIT FINDINGS, OCTOBER 2003
Our 2003 Office of the Inspector General follow-up audit analyzed the wage reporting of
the original Top 100 employers for TYs 1997 to 2000.2 We found that of the original
100 employers identified in the prior review, 40 were still among the Top 100 employers
with the most suspended wage items and the remaining 60 were not. Of the
60 employers no longer on the Top 100 listing, 14 had increased wage reporting
accuracy, 19 had decreased wage reporting accuracy, and the remaining 27 employers
did not have sufficient wage items in the follow-up period to calculate their reporting
accuracy. We found that some of the employers no longer on the Top 100 list were
reporting their wages under different Employer Identification Numbers.3 In addition, it is
possible that some of these employers were no longer in business.




2
 SSA OIG, Follow-Up Review of Employers with the Most Suspended Wage Items (A-03-03-13026),
October 2003.
3
 The Employer Identification Number is a 9-digit number assigned by the Internal Revenue Service to
sole proprietors, corporations, partnerships, estates, trusts, and other entities for tax filing and reporting
purposes.




                                                      B-2
                                                                     Appendix C

Scope and Methodology
To meet our objectives, we performed the following steps.

•   Reviewed prior Social Security Administration (SSA) Office of the Inspector General
    and Treasury Inspector General for Tax Administration reports and other materials
    related to the Earnings Suspense File (ESF) and inaccurate wage reporting.

•   Reviewed SSA policies and procedures for maintaining individual earnings records
    and contacting employers with suspended wages.

•   Created a new Top 100 list of employers using the same criteria used in our two
    prior Top 100 reports. We identified all employers who contributed 200 or more
    wage items to the ESF in each of the 5 years in our review, Tax Years (TYs) 1997 to
    2001. We found 1,565 employers met this criterion. Using this data, we selected
    the 100 employers who had the most suspended wage items in our 5-year review
    period. We then obtained the total dollar amounts associated with the suspended
    wage items. Finally, we obtained the total number of 1) wage items and 2) wages
    reported by these 100 employers for the 5-year review period.

•   Identified the total number of employers with 200 or more ESF items for only
    TY 2001 and obtained similar data for these firms. There were 5,689 employers
    meeting this criterion.

•   For both employer groups above, calculated the percentages of reported 1) wage
    items and 2) wages posted to the ESF for each of the employers. For the Top
    100 employers, we also identified the number of assigned and unassigned Social
    Security numbers (SSN) reported in TY 2001, and other wage reporting trends and
    irregularities.

•   Reviewed available information pertaining to SSA’s Earnings Data Warehouse
    (EDW) and interviewed SSA employees involved in administrating the EDW.

•   The following are some important factors regarding the methodology used in our
    review that need to be considered:

    ¾ The list is based on wage items reported under an Employer Identification
      Number (EIN), and some employers report under multiple EINs. Hence, while
      the trends noted in the audit relate to the EIN, they do not necessarily give a
      complete picture of the employer. However, SSA's systems maintain the wage
      data under EINs and do not allow us to focus on individual employers. As a



                                          C-1
       result, the audit is identifying the 100 EINs with the most suspended wage items
       and not necessarily the 100 employers with the most suspended wage items.

    ¾ Employers are allowed to switch their EINs for wage reporting. As a result, we
      found instances where wages were reported under different EINs over the 5-year
      period. If a company switched EINs between 1997 and 2001, it may have failed
      to report over 200 items in a particular year under a specific EIN and, therefore,
      never have made the Top 100 employer listing.

    ¾ Some employers are on the list because of their employment volume rather than
      significant problems with their reporting accuracy. For example, some employers
      are reporting only 1 percent of their employees with name/SSN mismatches, but
      they are on the list because 1 percent of their total payroll is a large number.
      These employers may not have the same underlying problems as a smaller
      employer reporting as much as 85 percent of its payroll in error.

•   Our audit did not include an evaluation of SSA’s internal controls over the wage
    reporting process. The purpose of our review was to determine how SSA used the
    wage reporting data the Agency had accumulated. We did not focus our efforts on
    the collection of wage reporting data, nor did we attempt to establish the reliability or
    accuracy of such data. In prior audits, we reviewed the completeness and accuracy
    of the ESF postings,1 and tested that accuracy of ESF data that was reinstated to
    correct earnings records.2




1
 SSA OIG, Reliability of the Data Used to Measure the Accuracy of Earnings Posted (A-03-00-10004),
May 2001.
2
 SSA OIG, Effectiveness of the Social Security Administration’s Decentralized Correspondence Process
(A-03-01-11034), June 2002, and SSA OIG, Effectiveness of the Social Security Administration’s
Earnings After Death Process (A-03-01-11035), August 2002.




                                                C-2
                                                                                           Appendix D

Top 100 Employers for Tax Years 1997 to 2001-- Earnings
Suspense File Wage Items
               TAX YEARS (TY) 1997-2001 EARNINGS SUPSENSE
                          FILE (ESF) WAGE ITEMS                           TYs 1997-2001 ESF WAGES
                                               SUSPENDED                                        SUSPENDED
                                                  ITEMS                                         WAGES AS A
                                               AS PERCENT                                       PERCENT OF
                SUSPENDED        REPORTED       REPORTED       SUSPENDED         REPORTED        REPORTED
RANK   STATE   WAGE ITEMS       WAGE ITEMS        ITEMS          WAGES             WAGES          WAGES
  1      IL          131,991        1,130,180         11.68%    $524,933,538     $5,454,058,505        9.62%
  2      TX          108,302          737,716         14.68%    $532,964,026     $3,059,859,452       17.42%
  3      FL          106,073          379,741         27.93%    $249,952,871       $860,746,129       29.04%
  4     NY            86,243        1,041,002          8.28%    $467,508,085     $4,405,111,915       10.61%
  5     CA            76,857          373,784         20.56%    $358,907,957     $1,962,480,891       18.29%
  6     CA            66,103        1,028,743          6.43%    $130,438,417     $2,078,211,324        6.28%
  7      MI           56,705        3,012,716          1.88%    $176,089,925    $13,343,514,290        1.32%
  8     KY            50,455          564,788          8.93%    $226,043,907     $2,540,935,442        8.90%
  9     CA            50,027          659,162          7.59%    $178,083,256     $1,769,734,446       10.06%
 10     SC            49,158          446,794         11.00%    $220,172,981     $1,824,878,432       12.07%
 11     GA            45,749          232,441         19.68%    $151,314,908     $1,207,707,941       12.53%
 12     OK            43,375        1,227,614          3.53%    $117,983,189     $2,592,833,629        4.55%
 13     CA            39,171           49,978         78.38%     $80,219,973       $113,496,931       70.68%
 14      NJ           37,302           73,236         50.93%     $50,626,511        $94,771,503       53.42%
 15     CA            36,458          141,088         25.84%    $178,514,463       $685,649,213       26.04%
 16     NM            36,455          425,714          8.56%    $147,551,907     $2,007,214,843        7.35%
 17     MN            36,438          211,025         17.27%    $134,093,065       $877,849,500       15.28%
 18     KY            36,002          738,765          4.87%     $67,310,457     $1,953,214,169        3.45%




                                                     D-1
                       TYs 1997-2001 ESF WAGE ITEMS                        TYs 1997-2001 ESF WAGES
                                                                                                 SUSPENDED
                                               SUSPENDED                                         WAGES AS A
                                                  ITEMS                                          PERCENT OF
               SUSPENDED      REPORTED         AS PERCENT       SUSPENDED         REPORTED        REPORTED
RANK   STATE   WAGE ITEMS     WAGE ITEMS     REPORTED ITEMS       WAGES             WAGES          WAGES
 19     CA           34,521         91,383            37.78%      $74,307,690       $225,371,469       32.97%
 20     CA           33,016         44,330            74.48%      $50,000,341        $84,465,712       59.20%
 21      TX          32,808        172,585            19.01%     $156,643,844     $1,067,378,798       14.68%
 22      IL          32,264         49,180            65.60%      $85,954,651       $121,477,291       70.76%
 23      TX          32,189        125,629            25.62%     $165,256,150       $775,225,403       21.32%
 24     CA           31,171         55,967            55.70%      $54,497,262       $119,982,663       45.42%
 25     OH           30,592        249,481            12.26%     $127,561,745     $1,185,613,393       10.76%
 26     OH           28,317        181,790            15.58%     $108,638,471       $796,052,266       13.65%
 27      TX          27,691        151,985            18.22%     $128,225,077       $892,156,521       14.37%
 28      NJ          27,477         57,264            47.98%      $32,499,346        $65,336,355       49.74%
 29     CA           27,283         39,100            69.78%      $27,833,987        $43,537,978       63.93%
 30      IL          27,229         48,157            56.54%      $42,931,023        $64,346,640       66.72%
 31     CA           27,018         44,170            61.17%      $38,311,364        $77,903,387       49.18%
 32      IL          26,765         45,128            59.31%      $46,234,639        $72,645,670       63.64%
 33      TX          25,327         97,525            25.97%      $59,367,779       $241,128,563       24.62%
 34     TN           25,300        572,229              4.42%    $106,005,077     $2,325,217,499        4.56%
 35     MN           25,292      1,851,420              1.37%    $134,128,618    $13,050,799,269        1.03%
 36      LA          25,175        164,887            15.27%      $92,689,698     $1,386,988,524        6.68%
 37     UT           24,827        435,698              5.70%     $67,498,582       $897,669,216        7.52%
 38     AR           24,780      5,402,408              0.46%     $92,649,911    $66,317,739,626        0.14%
 39      MI          24,734      2,923,056              0.85%    $110,868,849    $19,303,859,259        0.57%
 40      TX          24,363        203,148            11.99%      $69,517,833       $709,268,403        9.80%
 41      FL          24,071         36,100            66.68%      $71,614,446       $162,686,812       44.02%
 42     MN           22,105         77,466            28.54%      $94,243,226       $358,551,597       26.28%
 43      TX          22,039        125,792            17.52%      $33,503,735       $171,666,996       19.52%
 44      IL          22,016         63,342            34.76%      $51,471,182       $106,569,395       48.30%
 45     KS           21,843         96,681            22.59%     $113,278,658       $583,765,393       19.40%
 46     CA           21,840      1,704,612              1.28%     $56,996,483     $4,939,817,412        1.15%
 47      FL          21,565         26,589            81.10%      $58,506,183        $81,369,797       71.90%


                                                      D-2
                       TYs 1997-2001 ESF WAGE ITEMS                        TYs 1997-2001 ESF WAGES
                                                                                                 SUSPENDED
                                               SUSPENDED                                         WAGES AS A
                                                  ITEMS                                          PERCENT OF
               SUSPENDED      REPORTED         AS PERCENT       SUSPENDED         REPORTED        REPORTED
RANK   STATE   WAGE ITEMS     WAGE ITEMS     REPORTED ITEMS       WAGES             WAGES          WAGES
 48     CA           21,434         69,801            30.71%      $86,028,370       $297,523,822       28.91%
 49      WI          21,338        306,933              6.95%     $76,072,109     $1,266,839,399        6.00%
 50     CA           21,131         28,495            74.16%      $29,708,493        $43,729,831       67.94%
 51     CA           20,942         31,441            66.61%      $30,295,464        $50,710,962       59.74%
 52     GA           20,793         52,766            39.41%     $113,532,115       $440,624,450       25.77%
 53      IL          20,743         28,784            72.06%      $43,087,003        $51,785,583       83.20%
 54     CA           20,538         48,062            42.73%     $104,880,153       $341,597,132       30.70%
 55      TX          20,074         40,643            49.39%      $33,209,528        $52,444,376       63.32%
 56     SC           19,573        325,503              6.01%     $65,283,165       $890,684,834        7.33%
 57     CA           19,230         29,618            64.93%      $53,804,244        $93,379,479       57.62%
 58     CA           19,193         68,891            27.86%      $95,525,517       $338,892,248       28.19%
 59     NE           18,852        572,610              3.29%    $197,524,222    $10,190,535,407        1.94%
 60      IA          18,311         29,810            61.43%     $112,317,486       $190,915,072       58.83%
 61      TX          18,231        224,823              8.11%     $88,328,269       $550,553,331       16.04%
 62     OR           18,228        249,328              7.31%     $68,088,754     $1,206,511,726        5.64%
 63      IL          17,619         75,934            23.20%     $106,111,838       $512,961,361       20.69%
 64     WA           17,560         26,511            66.24%      $30,271,870        $57,705,452       52.46%
 65     GA           17,483        186,864              9.36%     $87,697,567       $699,192,720       12.54%
 66     OH           17,208         29,244            58.84%      $31,554,686        $45,284,480       69.68%
 67      TX          17,173        189,580              9.06%     $88,591,505       $821,726,171       10.78%
 68     CA           17,084         22,202            76.95%      $37,128,171        $55,914,654       66.40%
 69     CA           17,075         52,010            32.83%      $70,441,404       $224,983,732       31.31%
 70     CA           16,627        289,309              5.75%     $46,958,992       $795,669,604        5.90%
 71      TX          16,378         97,089            16.87%     $178,348,327     $1,299,143,399       13.73%
 72     NY           16,358        575,812              2.84%     $69,413,980     $4,207,135,059        1.65%
 73      IL          16,036         22,196            72.25%      $28,469,976        $37,691,291       75.53%
 74      AZ          15,983         44,092            36.25%      $26,651,514        $74,839,982       35.61%
 75     TN           15,982        300,603              5.32%     $70,641,087     $1,133,336,167        6.23%
 76      TX          15,368         88,829            17.30%      $43,302,291       $191,461,709       22.62%
 77     CO           15,162        136,473            11.11%      $65,223,596       $609,410,678       10.70%


                                                      D-3
                         TYs 1997-2001 ESF WAGE ITEMS                        TYs 1997-2001 ESF WAGES
                                                                                                       SUSPENDED
                                                 SUSPENDED                                             WAGES AS A
                                                    ITEMS                                              PERCENT OF
                 SUSPENDED      REPORTED         AS PERCENT       SUSPENDED          REPORTED           REPORTED
RANK     STATE   WAGE ITEMS     WAGE ITEMS     REPORTED ITEMS       WAGES              WAGES               WAGES
 78       NC           14,838        142,574            10.41%       $51,128,279       $444,079,652        11.51%
 79        IL          14,837        169,216              8.77%      $45,186,039       $332,182,151        13.60%
 80       OH           14,663        363,370              4.04%      $56,211,919     $1,420,890,805         3.96%
 81        TX          14,427         57,732            24.99%       $32,085,397       $194,829,259        16.47%
 82       WA           14,091         19,188            73.44%       $62,417,898        $95,377,435        65.44%
 83        IL          14,084        151,718              9.28%      $42,230,961       $454,119,213         9.30%
 84       KY           13,995         99,378            14.08%       $66,956,795       $403,722,642        16.58%
 85        FL          13,885        226,478              6.13%      $40,574,714     $1,035,839,885         3.92%
 86        AZ          13,884         47,377            29.31%       $20,808,702        $87,733,844        23.72%
 87        IL          13,783         17,701            77.87%       $39,330,630        $51,017,775        77.09%
 88        TX          13,557         70,838            19.14%       $47,308,192       $423,719,604        11.16%
 89       CA           13,300         17,865            74.45%       $14,288,211        $20,433,897        69.92%
 90       KS           13,287         66,128            20.09%       $47,981,007       $333,377,827        14.39%
 91        IL          13,276         23,847            55.67%       $27,571,231        $43,950,856        62.73%
 92       CA           13,247         30,304            43.71%       $61,045,644       $179,984,258        33.92%
 93        TX          13,240        332,336              3.98%      $36,501,214       $834,034,845         4.38%
 94        WI          13,237      1,175,323              1.13%      $41,946,282     $3,752,404,573         1.12%
 95        NJ          13,214        242,652              5.45%      $86,788,484     $2,865,070,097         3.03%
 96       CA           13,184         67,266            19.60%       $91,567,382       $463,255,984        19.77%
 97        IL          13,137         20,457            64.22%       $21,518,488        $38,221,253        56.30%
 98       CA           13,063         17,704            73.79%       $29,606,997        $45,380,211        65.24%
 99       CA           12,993         22,988            56.52%       $13,135,799        $32,267,508        40.71%
 100       IL          12,951        301,071              4.30%      $72,301,907     $2,553,107,310         2.83%
Totals              2,728,362     35,539,356              7.68%   $9,570,929,156   $205,939,044,856         4.65%




                                                        D-4
                                                                                    Appendix E

Alphabetical Listing Top 100 Employers by State
                                Number of              Total Suspended             Total Suspended
         State                  Employers                 Wage Items                    Wages
 ARIZONA                               2                                29,867                $47,460,216
 ARKANSAS                              1                                24,780                $92,649,911
 CALIFORNIA                           25                               682,506             $1,992,526,035
 COLORADO                              1                                15,162                $65,223,596
 FLORIDA                               4                               165,594               $420,648,214
 GEORGIA                               3                                84,025               $352,544,591
 ILLINOIS                             14                               376,731             $1,177,333,106
 IOWA                                  1                                18,311               $112,317,486
 KANSAS                                2                                35,130               $161,259,665
 KENTUCKY                              3                               100,452               $360,311,159
 LOUISIANA                             1                                25,175                $92,689,698
 MICHIGAN                              2                                81,439               $286,958,774
 MINNESOTA                             3                                83,835               $362,464,910
 NORTH CAROLNA                         1                                14,838                $51,128,279
 NEBRASKA                              1                                18,852               $197,524,222
 NEW JERSEY                            3                                77,993               $169,914,341
 NEW MEXICO                            1                                36,455               $147,551,907
 NEW YORK                              2                               102,601               $536,922,065
 OHIO                                  4                                90,780               $323,966,821
 OKLAHOMA                              1                                43,375               $117,983,189
 OREGON                                1                                18,228                $68,088,754
 SOUTH CAROLINA                        2                                68,731               $285,456,146
 TENNESSEE                             2                                41,282               $176,646,164
 TEXAS                                15                               401,167             $1,693,153,169
 UTAH                                  1                                24,827                $67,498,582
 WASHINGTON                            2                                31,651                $92,689,767
 WISCONSIN                             2                                34,575               $118,018,390
 TOTALS                              100                            2,728,362            $9,570,929,156

Note: For each of the Top 100 employers, we used the employer mailing address related to the
Employer Identification Number (EIN). The EIN is a 9-digit number assigned by the IRS to sole
proprietors, corporations, partnerships, estates, trusts, and other entities for tax filing and reporting
purposes. This address may relate more to payroll issues than the physical location where an employer
does most of its business.
                                                                                Appendix F
Earnings Data Warehouse
The Social Security Administration (SSA) has developed the Earnings Data Warehouse
(EDW), a management information system to assist tracking employer wage reporting.
Users include the following SSA components:

•   Office of Central Operations;
•   Wilkes-Barre Data Operations Center;
•   Deputy Commissioner for Finance, Assessment and Management; and
•   Employer Service Liaison Officers.

The EDW is a relational database system using online processing tools to access
different views of earnings data. The EDW provides historical and trend data to assist
components:

•   Analyze corrective actions and errors;
•   Analyze wage reporting data received by SSA;
•   Support the electronic filing initiative, marketing efforts, and outreach programs; and
•   Manage their workload.

The management information data stored in the EDW is based on the detailed data
housed in the Earnings Management Information Operations Data Store.

The EDW is being implemented in two phases. Currently, EDW is in phase one, which
is the submission level. At this level, EDW contains information about the companies
that submit data such as the number of Wage and Tax Statements (Form W-2). The
next phase, the employer level, is expected to be available in 2004 and will contain
information from Tax Year 1998 forward. The employer level will contain additional
information about the individual employers, including addresses, the type of media used
to report earnings information, incorrect Social Security numbers (SSN), invalid SSNs,
young children’s earnings,1 earnings after death,2 and various statistical data.




1
  Young children’s earnings are earnings reported to SSA under an SSN where SSA’s records indicate
the Numberholder of the SSN is a child age 6 or younger. These earnings are placed in the Earning
Suspense File (ESF) and investigated by SSA.
2
  Earnings after death are earnings reported to SSA for an SSN where the Numberholder is deceased
according to SSA’s records. These earnings are placed in the ESF and investigated by SSA. Our August
2002 audit report Effectiveness of SSA’s Earnings After Death Process (A-03-01-11035) contains more
information on this subject.
                                                                                    Appendix G

Status of Internal Revenue Service Efforts to Monitor
Employers
Title II of the Social Security Act requires the Social Security Administration (SSA) to
maintain records of wages employers pay to employees, but does not give SSA the
authority to enforce accurate wage reporting. The Internal Revenue Service (IRS) has
that authority through its power to levy monetary penalties. The Internal Revenue Code
allows the Agency to penalize an employer if it fails to file a complete and accurate
wage reporting form.1 The penalty is $50 per incorrect form, with a $250,000 annual
limit. For businesses with average receipts of not more than $5 million, the limit is
$100,000 yearly.2 To date, the IRS has yet to assess monetary penalties against
employers filing inaccurate Wage and Tax Statements (Form W-2).3

In recent congressional testimony, the IRS Commissioner noted that his Agency
reviewed the records of employers who had submitted a large number of wage items to
SSA’s Earnings Suspense File (ESF).4 In his testimony, the Commissioner stated that
employers are required to exercise due diligence in collecting an employee’s Social
Security number (SSN) and obtaining information from an employee on an Employee’s
Withholding Allowance Certificate (Form W-4). Employers can, but are not required to,
ask for proof of the SSN reported on form W-4 and validate the SSN using SSA’s
Employee Verification Service (EVS).5

The IRS also conducted compliance checks of 78 employers. These 78 employers
were selected from a list of employers provided by SSA that had the highest volume

1
    26 U.S.C. § 6721 (2003).
2
  See id. The gross receipts test is met when, for any calendar year, the average annual gross receipts for
the most recent 3 taxable years do not exceed $5 million. In addition, any reference to an entity includes
a reference to any predecessor of that entity, and, the Internal Revenue Code allows for exceptions if the
errors are due to reasonable cause.
3
  The Treasury Inspector General for Tax Administration (TIGTA) estimated that the IRS could have
assessed penalties between $26.0 million and $29.7 million against 93 employers in TY 1997 and an
additional 98 employers in TY 1998. For more information on TIGTA’s September 2002 audit report, see
The Internal Revenue Service Does Not Penalize Employers that File Wage and Tax Statements with
Inaccurate Social Security Numbers (Ref. Number 2002-30-156).
4
 Individual Taxpayer Identification Numbers and Social Security Number Matching Prepared Testimony
of Mark E. Everson, Commissioner of Internal Revenue, before the House Ways and Means Subcommittee
on Oversight and Subcommittee on Social Security, March 10, 2004.
5
 EVS is a voluntary service designed to ensure that employees’ names and SSNs are valid before the
employees’ W-2s are submitted to SSA. Our September 2002 audit report The Social Security
Administration’s Employee Verification Service for Registered Employers (A-03-02-22008) provides
detailed information on the EVS process.


                                                   G-1
and/or highest percentage of W-2s that did not match SSA’s records. Of these
78 employers, 50 were large employers with a high number of ESF items. The IRS
concluded all 50 of these employers had programs and processes for obtaining
information for Forms W-4 and using the information in preparing individuals’ W-2s.
These employers also had processes in place for re-soliciting required information upon
receipt of a no-match letter from SSA. Based on the IRS’s analysis, no penalty potential
was identified for these 50 employers.6

The remaining 28 of the 78 employers were smaller companies, generally issuing less
than 1,000 W-2s but with error rates of 93 percent and above. The IRS analysis
showed that these employers frequently used day labor and had high employee
turnover. Like the larger employers, the smaller companies obtained W-4s, used the
W-4 information to prepare W-2s, and attempted to correct information upon receipt of a
no-match letter from SSA. The IRS analysis concluded that there was no potential for
penalties for these employers.7




6
 Individual Taxpayer Identification Numbers and Social Security Number Matching Prepared Testimony
of Mark E. Everson, Commissioner of Internal Revenue, before the House Ways and Means Subcommittee
on Oversight and Subcommittee on Social Security, March 10, 2004.
7
    Ibid.




                                              G-2
                                                                         Appendix H

Prior Office of the Inspector General Reports
          Social Security Administration, Office of the Inspector General
                  Reports Related to the Earnings Suspense File
   Common
 Identification                    Report Title                         Date
    Number                                                             Issued
A-03-02-22076    Utility of Older Reinstated Wages from the Earning      December 2003
                 Suspense File
A-03-03-13026    Follow-up Review of Employers with the Most             October 2003
                 Suspended Wage Items
A-03-03-24048    Congressional Response Report: Use and Misuse           August 2003
                 of the Social Security Number
A-03-03-13017    Congressional Response Report: Review of the            April 2003
                 Social Security Number Feedback Pilot Project
A-03-03-23038    Congressional Response Report: Status of the            November 2002
                 Social Security Administration’s Earnings Suspense
                 File
A-03-02-22008    The Social Security Administration’s Employee           September 2002
                 Verification Service for Registered Employers
A-03-01-11035    Effectiveness of the Social Security Administration’s   August 2002
                 Earnings After Death Process
A-03-01-11034    Effectiveness of the Social Security Administration’s   July 2002
                 Decentralized Correspondence Process
A-03-01-30035    Management Advisory Report: Recent Efforts to           May 2002
                 Reduce the Size and Growth of the Social Security
                 Administration’s Earnings Suspense File
A-03-00-10022    Management Advisory Report: Review of Service           September 2001
                 Industry Employer with Wage Reporting Problems
A-03-99-31001    Force Processing of Magnetic Media Wage Reports         May 2001
                 with Validation Problems
A-08-99-41004    Obstacles to Reducing Social Security Number            January 2001
                 Misuse in the Agricultural Industry
A-03-97-31003    The Social Security Administration’s Earning            February 2000
                 Suspense Tactical Plan and Efforts to Reduce the
                 File’s Growth and Size
A-03-98-31009    Patterns of Reporting Errors and Irregularities by      September 1999
                 100 Employers with the Most Suspended Wage
                 Items
                  Appendix I

Agency Comments
                                        SOCIAL SECURITY


MEMORANDUM                                                                       33240-24-1137


Date:       October 14, 2004                                               Refer To: S1J-3

To:         Patrick P. O’Carroll, Jr.
            Acting Inspector General

From:       Larry W. Dye /s/
            Chief of Staff

Subject:    Office of the Inspector General (OIG) Draft Report, “Employers with the Most
            Suspended Wage Items in the 5-Year Period 1997 through 2001” (A-03-03-13048)--
            INFORMATION


           We appreciate OIG's efforts in conducting this review. Our comments to the
           recommendations are attached.

           Please let us know if we can be of further assistance. Staff questions may be referred
           to Candace Skurnik at extension 54636.

           Attachment:
           SSA Response




                                                      I-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “EMPLOYERS WITH THE MOST SUSPENDED WAGE ITEMS IN THE
5-YEAR PERIOD 1997 THROUGH 2001” A-03-03-13048

We appreciate the opportunity to comment on the draft report. For some time now, we have
been engaged in a variety of activities geared to reducing the growth and size of the Earnings
Suspense File (ESF). As the ESF continues to grow in both real and relative terms, we maintain
a focus on educating employers about proper wage reporting techniques through our Employer
Service Liaison Officers (ESLO) in each region. In the past, we have been commended for our
efforts in reducing the size and growth of the ESF (OIG Congressional Response Report, “Status
of Social Security Administration’s Earnings Suspense File” A-03-03-23038).

Our comments to the recommendations and technical comments to the report are below.

Recommendation 1

Create centralized Earnings Data Warehouse (EDW) reports, after considering ESLO input, that
assist ESLOs with identifying problematic employer reporting trends, such as increases in the
volume of wage items in suspense as well as the percent of an employer’s payroll in the ESF.

Comment

We partially agree. We will work with each ESLO in determining their individual reporting
needs and requirements, including the method of delivery.

EDW currently has the report capabilities to identify employers with large numbers of items on
the ESF or larger percentages of W-2 data on the ESF. As for identifying specific employer
payroll percentage calculations of incorrect wage items as compared to correct wage items, the
Annual Wage Reporting (AWR) system, which is the source of the Earnings Management
Information Operational Data Store (EMODS) and EDW data, would have to pass on the total
number of accurate W2’s posted to the Master Earnings File. AWR currently does not provide
this information and would require systems modifications to allow EMODS to calculate this
measure, and would require approval for resources from the Agency’s Information Technology
Advisory Board.

Recommendation 2

Ensure ESLOs consider employer reporting trends created by EDW as part of their criteria in
identifying employers for assistance through periodic monitoring from Headquarters.

Comment

We partially agree. We will utilize the EDW to identify those employers who are determined to
need our assistance in the wage reporting arena. The ESLOs in each region will continue to
provide the employer community with wage reporting educational seminars and any needed
individual attention. In addition, we will continue to partner with the regional ESLOs in



                                              I-2
monitoring and implementing changes to address the Agency’s ESF goals, but not directly
monitor the ESLOs from Headquarters.


[In addition to the items listed above, SSA also provided technical comments which
have been addressed, where appropriate, in this report.]




                                             I-3
                                                                      Appendix J

OIG Contacts and Staff Acknowledgments
OIG Contacts

Walter Bayer, Director, Mid-Atlantic Audit Division, (215) 597-4080

Cylinda McCloud-Keal, Audit Manager, (215) 597-0572

Acknowledgments

In addition to those named above:

Michael Thomson, Auditor-in-Charge

Richard Devers, Computer Specialist


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-03-03-13048.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General

The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
